                 Procedures and Practices to Comply With
                    the Rural Development Act of 1972
                              Have Improved

                                     July 2004

                       Reference Number: 2004-10-134




This report has cleared the Treasury Inspector General For Tax Administration disclosure
review process and information determined to be restricted from public release has been
                              redacted from this document.
                                            DEPARTMENT OF THE TREASURY
                                                 WASHINGTON, D.C. 20220




INSPECTOR GENERAL
     for TAX
  ADMINISTRATION




                                                     July 22, 2004


       MEMORANDUM FOR CHIEF, AGENCY-WIDE SHARED SERVICES


       FROM:                       Gordon C. Milbourn III
                                   Acting Deputy Inspector General for Audit

       SUBJECT:                    Final Audit Report - Procedures and Practices to Comply With
                                   the Rural Development Act of 1972 Have Improved
                                   (Audit # 200410019)


       This report presents the results of our audit to determine if the Internal Revenue
       Service (IRS) has implemented the corrective actions planned in response to our prior
       audit1 and if the policies that have been established to comply with requirements of the
       Rural Development Act of 1972 (RDA) (as amended)2 are adequate and being followed.
       This audit was performed in compliance with the requirements of the Consolidated
       Appropriations Resolution, 2004.3
       The intent of the RDA was to help revitalize and develop rural areas by ensuring they
       receive adequate consideration when locating Federal facilities. The IRS established
       policy and procedures to promote compliance with the Act and documented them in a
       Location Policy in June 2002. The Location Policy uses a definition of a rural area that
       is consistent with the definition recommended by the General Services Administration.
       In summary, our review of moves and relocations showed the procedures in the
       Location Policy are being followed in most instances. However, some projects initiated
       prior to the establishment of the Location Policy did not contain documentation showing
       that the RDA and Department of the Treasury requirements had been considered.
       Because of the length of the IRS’ space acquisition process, projects initiated prior to
       establishment of the Location Policy may still not have been finalized, and the RDA and
       Department of the Treasury requirements could still be addressed. In addition, one of


       1
         Procedures Established to Ensure Compliance With the Rural Development Act of 1972 Were Not Consistently
       Followed (Reference Number 2003-10-177, dated August 2003).
       2
         7 U.S.C § 2204b-1(b) (2000).
       3
         Pub. L. No. 108-199, Division F, Title VI, § 636.
                                             2

the relocation projects misclassified the site of a new post-of-duty as rural instead of
urban. While this particular IRS building may be best suited to an urban site, accurate
classification is an important factor in making a proper determination.
We recommended the Chief, Agency-Wide Shared Services (AWSS), require that
moves or relocations initiated prior to establishment of the Location Policy, but for which
the Solicitations for Offers have not been made, be reviewed for compliance with the
RDA. In addition, a definitive source, such as the United States Census, should be
established for making decisions as to whether a location is rural or urban.
Management’s Response: AWSS management agreed with our recommendations.
Based on our conversations with management, we changed the wording of one of the
recommendations to ensure its intent was clear. The AWSS will review projects
approved prior to the Location Policy, where the Government has not yet issued a
Solicitation for Offers, to ensure compliance with the RDA. The AWSS will also identify
a preferred standard for obtaining population data. Management’s complete response
to the draft report is included as Appendix IV.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Daniel R. Devlin, Assistant Inspector General for Audit (Headquarters Operations and
Exempt Organizations Programs), at (202) 622-8500.
                               Procedures and Practices to Comply With the
                               Rural Development Act of 1972 Have Improved




                                                  Table of Contents


Background ................................................................................................. Page 1
Procedures to Ensure Compliance With the Rural Development
Act Are Generally Being Followed ............................................................... Page 3
         Recommendation 1: ........................................................................ Page 3

Use of a Definitive Source for Population Statistics Would
Help Properly Classify Locations ................................................................. Page 4
         Recommendation 2: ........................................................................ Page 5

Appendix I – Detailed Objective, Scope, and Methodology ......................... Page 6
Appendix II – Major Contributors to This Report.......................................... Page 7
Appendix III – Report Distribution List ......................................................... Page 8
Appendix IV – Management’s Response to the Draft Report ...................... Page 9
             Procedures and Practices to Comply With the
             Rural Development Act of 1972 Have Improved

                         The Rural Development Act of 1972 (RDA) (as amended)1
Background
                         requires the heads of all Federal executive departments and
                         agencies to establish and maintain departmental policies and
                         procedures giving first priority to the location of new offices
                         and other facilities in rural areas. The intent of this
                         provision is to help revitalize and develop rural areas by
                         ensuring they receive adequate consideration when locating
                         Federal offices and facilities.
                         The Department of the Treasury issued a directive, Location
                         of New Offices and Facilities in Rural Areas (Treasury
                         Directive (TD) 72-03), which was updated August 19, 2003,
                         to meet the requirements of the RDA. TD 72-03 states that
                         the policy of the Department of the Treasury (and all
                         bureaus) is to give first priority to locating new Treasury
                         facilities in rural areas unless there are substantial reasons
                         for not doing so. TD 72-03 also requires the bureaus to
                         obtain written approval to deviate from the requirements of
                         the Directive. Department of the Treasury approval is
                         required for a major facility acquisition, a significant
                         organizational change involving geographic or regional
                         adjustments, or a program activity that involves, in its
                         entirety, 50 or more employees. In all other instances, the
                         appropriate bureau official may approve decisions to
                         relocate to other than a rural area.
                         The Real Estate and Facilities Management (REFM)
                         Division of the Agency-Wide Shared Services (AWSS)
                         office is responsible for real estate acquisition and
                         management for the Internal Revenue Service (IRS). To
                         promote compliance with the RDA, the IRS established
                         policy and procedures and documented them in the
                         Memorandum on Location Policy in June 2002.2 The
                         Location Policy is published on the AWSS office web site
                         and provides guidelines to ensure the RDA is addressed.
                         Included with the Location Policy is a checklist developed
                         to help evaluate new locations for RDA compliance. The
                         policy also requires narrative support for decisions to
                         locate in other than rural areas. Facilities Management
                         Officers (FMO) and project managers for space projects are

                         1
                          7 U.S.C § 2204b-1(b) (2000).
                         2
                          Memorandum from the Director, Real Estate and Facilities
                         Management Division (dated June 17, 2002).
                                                                                     Page 1
Procedures and Practices to Comply With the
Rural Development Act of 1972 Have Improved

            responsible for preparing this documentation, which is
            forwarded to realty specialists at the National Headquarters
            for review for compliance with the policy. Once reviewed
            by a realty specialist, the documentation is returned to the
            FMOs or project managers for inclusion in their project
            files.
            The Consolidated Appropriations Resolution, 20043 requires
            the Inspector General of each applicable department or
            agency to submit to the House of Representatives
            Committee on Appropriations a report detailing what
            policies and procedures are in place for each department or
            agency to give first priority to the location of new offices
            and other facilities in rural areas, as directed by the RDA.
            For the last 2 years, the Treasury Inspector General for Tax
            Administration has performed reviews to determine the IRS’
            compliance with the RDA. In last year’s report,4 we noted
            that, in most of the project files we reviewed, there was no
            documentation as to whether the RDA requirements were
            considered before moves were completed. We also
            determined that the definition of a rural area that the IRS
            used in its procedures was not consistent with the definition
            recommended by the General Services Administration
            (GSA) and did not comply with the Interim Procedures for
            TD 72-03. The IRS responded by revising the rural area
            definition; it is now consistent with the definition
            recommended by the GSA and TD 72-03. The definition is
            included in the IRS Location Policy and is posted on the
            REFM Division web site.
            This review was performed at the IRS National
            Headquarters in Washington, D.C., in the REFM Division
            during the period March through May 2004. The audit was
            conducted in accordance with Government Auditing
            Standards. Detailed information on our audit objective,
            scope, and methodology is presented in Appendix I. Major
            contributors to the report are listed in Appendix II.



            3
             Pub. L. No. 108-199, Division F, Title VI, § 636.
            4
             Procedures Established to Ensure Compliance With the Rural
            Development Act of 1972 Were Not Consistently Followed
            (Reference Number 2003-10-177, dated August 2003).
                                                                          Page 2
                      Procedures and Practices to Comply With the
                      Rural Development Act of 1972 Have Improved

Procedures to Ensure Compliance   To accomplish this year’s review, we selected a judgmental
With the Rural Development Act    sample of 19 of the 94 space projects that were either
Are Generally Being Followed      completed between January 2003 and April 2004 or pending
                                  at the end of this period. We reviewed the project files to
                                  evaluate the IRS’ compliance with the requirements of the
                                  RDA.5 Of the 19 projects in our sample, 15 were for moves
                                  to urban areas, and 4 were for moves to rural areas.
                                  The project files contained documentation that the RDA
                                  requirements were considered and Department of the
                                  Treasury approval was obtained when necessary for 14 of
                                  the 19 projects in our sample. The other five projects were
                                  missing some documentation needed to determine
                                  compliance with the RDA or Department of the Treasury
                                  policy. However, they were initiated before the IRS
                                  established its Location Policy in June 2002, which required
                                  IRS employees to retain documentation in the project file on
                                  the consideration of the RDA requirements and receipt of
                                  Department of the Treasury approval. For four of these five
                                  projects, the moves are complete; however, for one project,
                                  the new site location had not been finalized. We believe the
                                  IRS should review this project, document whether the RDA
                                  was considered, and obtain Treasury approval for this site,
                                  because it involves more than 50 employees.
                                  The IRS’ space acquisition process usually begins well in
                                  advance of the need for that space. Furthermore, delays
                                  caused by lack of funding, union negotiations, etc., can
                                  increase the amount of time between the initiation and
                                  completion of a project. As such, the IRS should review the
                                  project files for any moves that were initiated prior to the
                                  establishment of the Location Policy but for which the
                                  Solicitations for Offers have not been issued and
                                  commitments to specific locations have not yet been made.
                                  Such a review would help ensure compliance with the RDA
                                  and the IRS Location Policy.

                                  Recommendation

                                  1. The Chief, AWSS, should require the review of space
                                     projects that were initiated prior to establishment of the

                                  5
                                    See Appendix I for a description of the methodology used to select our
                                  judgmental sample.
                                                                                                  Page 3
                       Procedures and Practices to Comply With the
                       Rural Development Act of 1972 Have Improved

                                      IRS Location Policy, but for which the Solicitation for
                                      Offers has not been issued, to ensure those moves are in
                                      compliance with the RDA.
                                   Management’s Response: The AWSS will evaluate projects
                                   approved prior to the adoption of the Location Policy, where
                                   the Government has yet to issue a Solicitation for Offers, to
                                   ensure compliance with the RDA.
                                   The definition of rural is a city, town, or unincorporated
Use of a Definitive Source for
                                   area that has a population of 50,000 inhabitants or less,
Population Statistics Would Help
                                   other than an urbanized area immediately adjacent to a city,
Properly Classify Locations
                                   town, or unincorporated area that has a population in excess
                                   of 50,000 inhabitants. To meet the requirements of the
                                   RDA, an agency must determine whether a location meets
                                   this definition. There are several sources for population
                                   statistics, which can differ in the statistics they provide. We
                                   searched several sources for the populations of the cities in
                                   our sample and found there was considerable variation in
                                   the populations cited.
                                   In our sample of 19 cases, there was 1, a planned relocation
                                   to Santa Maria, California, in which the site of the new
                                   post-of-duty was misclassified as rural. The narrative
                                   attached to the request for space for this particular move
                                   states “this requirement is outside the boundary of a
                                   metropolitan area, and therefore, does not require further
                                   Rural Development Act analysis.” We researched the
                                   United States Census for 1990 and 2000 and found the
                                   populations for Santa Maria were 61,284 and 77,423,
                                   respectively. Based on the definition of rural that was
                                   established by the GSA and adopted by the IRS, this city
                                   would not qualify as rural. This particular IRS building will
                                   house employees who have day-to-day contact with
                                   taxpayers and may be best suited to an urban site instead of
                                   a rural location. However, because the site was not properly
                                   classified, that determination was not made.
                                   For consistency, the IRS Location Policy should include a
                                   recommended source for obtaining population information
                                   during RDA consideration. Neither the RDA nor GSA
                                   guidelines set a specific source for population information;
                                   however, the United States Census is the official population
                                   census of the United States. If different or more current
                                   population information is available elsewhere, that
                                                                                           Page 4
Procedures and Practices to Comply With the
Rural Development Act of 1972 Have Improved

            information could be used and the reason documented in the
            project file.

            Recommendation

            2. The Chief, AWSS, should modify the IRS Location
               Policy to establish a definitive source for obtaining
               population information when the RDA is being
               considered for new or relocated sites. Using a
               consistent, reliable source, such as the most recent
               United States Census, would help ensure sites are
               properly classified as either rural or urban. If population
               information from a source other than the United States
               Census is used, it should be documented in the project
               file.
            Management’s Response: The AWSS will identify a
            preferred standard for population data and require files be
            documented as to source and reason if an alternate standard
            is used.




                                                                   Page 5
                          Procedures and Practices to Comply With the
                          Rural Development Act of 1972 Have Improved

                                                                                                Appendix I


                          Detailed Objective, Scope, and Methodology

 The objective of this review was to determine if the Internal Revenue Service (IRS) implemented
 the corrective actions planned in response to our prior audit1 and if the policies that have been
 established to comply with requirements of the Rural Development Act of 1972 (RDA) (as
 amended)2 are adequate and being followed. This audit was performed in compliance with the
 requirements of the Consolidated Appropriations Resolution, 2004.3 To accomplish our
 objective, we:
 I.      Determined whether the IRS established adequate procedures to comply with the RDA
         and Treasury Directive (TD) 72-03, Location of New Offices and Facilities in Rural
         Areas.
         A. Verified whether the IRS revised the definition of a rural area to be consistent with
            the definition recommended by the General Services Administration and
            TD 72-03.
         B. Reviewed the procedures established by the IRS for locating new facilities.
II.      Evaluated whether the IRS is in compliance with the RDA and TD 72-03. We selected a
         judgmental sample of 19 of the 94 space projects that were either completed between
         January 2003 and April 2004 or pending at the end of this period. We used judgmental
         sampling due to time constraints, as we are required to report on the IRS’ compliance
         with the RDA by July 2004. We ensured we selected projects from each of the five Real
         Estate and Facilities Management Division geographic areas.
         A. Determined whether the IRS complied with the RDA and TD 72-03 when
            establishing new offices.
         B. Determined whether the IRS received the required approval if there were any
            deviations from the RDA.




 1
   Procedures Established to Ensure Compliance With the Rural Development Act of 1972 Were Not Consistently
 Followed (Reference Number 2003-10-177, dated August 2003).
 2
   7 U.S.C § 2204b-1(b) (2000).
 3
   Pub. L. No. 108-199, Division F, Title VI, § 636.
                                                                                                      Page 6
                     Procedures and Practices to Comply With the
                     Rural Development Act of 1972 Have Improved

                                                                                Appendix II


                           Major Contributors to This Report

Daniel R. Devlin, Assistant Inspector General for Audit (Headquarters Operations and Exempt
Organizations Programs)
Michael E. McKenney, Director
Kevin P. Riley, Audit Manager
Susan A. Price, Lead Auditor
David P. Robben, Senior Auditor
Gene A. Luevano, Auditor




                                                                                      Page 7
                     Procedures and Practices to Comply With the
                     Rural Development Act of 1972 Have Improved

                                                                   Appendix III


                                Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Director, Real Estate and Facilities Management OS:A:RE
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Management Controls OS:CFO:AR:M
Audit Liaison: Chief, Agency-Wide Shared Services OS:A




                                                                        Page 8
Procedures and Practices to Comply With the
Rural Development Act of 1972 Have Improved

                                              Appendix IV


Management’s Response to the Draft Report




                                                   Page 9
Procedures and Practices to Comply With the
Rural Development Act of 1972 Have Improved




                                              Page 10
Procedures and Practices to Comply With the
Rural Development Act of 1972 Have Improved




                                              Page 11
